No.

Su The
Supreme Court of the United States

ZACHARIAS CHRISTOPHER LEE,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis
and was represented by appointed counsel in the United States Court of Appeals for
the Fourth Circuit.

The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C § 3006A.

Respectfully submitted this 16th day of April, 2021.

 

Counsel of Record
THE LAW OFFICES
OF DENZIL H. FORRESTER
8325 Washburn Avenue, Suite 103
Charlotte, NC 28205
(704) 632-9992 — Telephone
(704) 632-9969 — Facsimile
denzilfesq@aol.com

Counsel for Petitioner
